 Department of Health and Human Services
                    OFFICE OF
               INSPECTOR GENERAL




NEW YORK COMPLIED WITH FEDERAL
    REQUIREMENTS TO REPORT
     MEDICAID OVERPAYMENT
  COLLECTIONS FOR THE QUARTER
   ENDED SEPTEMBER 30, 2011

   Inquiries about this report may be addressed to the Office of Public Affairs at
                            Public.Affairs@oig.hhs.gov.




                                                     James P. Edert
                                                Regional Inspector General

                                                        August 2013
                                                       A-02-12-01020
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices



    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as

 questionable, a recommendation for the disallowance of costs

 incurred or claimed, and any other conclusions and

 recommendations in this report represent the findings and 

 opinions of OAS. Authorized officials of the HHS operating

 divisions will make final determination on these matters.

                                         INTRODUCTION


WHY WE DID THIS REVIEW


States claim medical assistance and administrative costs, and credit the Centers for Medicare &
Medicaid Services (CMS) with any refunds due, on Form CMS-64, Quarterly Medicaid
Statement of Expenditures for the Medical Assistance Program (Form CMS-64). If overpayment
collections are underreported, the Federal Medicaid reimbursement due the State will be higher
than it should be. Conversely, overreporting collections results in a lower Federal Medicaid
reimbursement. Prior Office of Inspector General reviews found that States did not accurately
report all overpayment collections on Forms CMS-64.

OBJECTIVE

Our objective was to determine whether the New York State Department of Health (State
agency) complied with Federal requirements to report Medicaid overpayment collections on
Form CMS-64 for the quarter ended September 30, 2011.

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to certain low-income individuals and individuals with disabilities. The
Federal and State Governments jointly fund and administer Medicaid. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers Medicaid. Each State administers
its Medicaid program in accordance with a CMS-approved State plan. Although the State has
considerable flexibility in designing and operating its Medicaid program, it must comply with
applicable Federal requirements. In New York State, the State agency administers the Medicaid
program.

Medicaid providers submit claims to the State agency to receive compensation. The State
agency uses the Medicaid Management Information System, a computerized payment and
information reporting system, to process and pay Medicaid claims. The Federal Government
pays its share (Federal share) of the State agency’s expenditures according to a defined formula
(42 CFR § 433.10). The Federal share of overpayments identified by the State agency must be
refunded to CMS (section 1903(d)(2)(A) of the Act).

Quarterly Medicaid Statement of Expenditures for the Medical Assistance Program

The State agency claims medical assistance and administrative costs, and credits CMS with any
refunds due, on Form CMS-64. Section 2500.1(B) of CMS’ State Medicaid Manual instructs
States to report collections of Medicaid overpayments on Line 9 of Form CMS-64 and return the
Federal share of those overpayments.




New York Medicaid Overpayment Collections (A-02-12-01020)                                          1
States should report funds collected from: (1) other parties responsible for a beneficiary’s health
care costs after Medicaid has already paid a claim, (2) the estates of deceased Medicaid
beneficiaries, (3) fraud and abuse investigations, (4) refunds or cancellations, and
(5) miscellaneous sources.

HOW WE CONDUCTED THIS REVIEW

For the quarter ended September 30, 2011, the State agency reported that it collected
$241,237,400 ($127,065,635 Federal share) in overpayments on Form CMS-64. We reviewed
the State agency’s Form CMS-64 and supporting documentation to determine whether
overpayment collections were reported properly.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

The Appendix contains the details of our audit scope and methodology.

                                      RESULTS OF REVIEW

The State agency complied with Federal requirements to report Medicaid overpayment
collections on Form CMS-64 for the quarter ended September 30, 2011. Therefore, we are
making no recommendations to the State agency.




New York Medicaid Overpayment Collections (A-02-12-01020)                                             2
                    APPENDIX: AUDIT SCOPE AND METHODOLOGY


SCOPE


Our review covered $241,237,400 ($127,065,635 Federal share) in overpayment collections that
the State agency reported on Form CMS-64 for the quarter ended September 30, 2011.

We did not review the overall internal control structure of the State agency. Rather, we limited
our internal control review to obtaining an understanding of the identification, collection, and
reporting of Medicaid overpayments.

We performed fieldwork at State agency offices in Albany and New York, New York from
September 2012 through April 2013.

METHODOLOGY

To accomplish our audit objective, we:

    •	 reviewed relevant Federal requirements;

    •	 interviewed State agency officials regarding the State agency’s policies and procedures
       for identifying third-party liabilities, processing claims, collecting overpayments, and
       reporting collections of Medicaid overpayments on Form CMS-64;

    •	 obtained summary and claims information for the State agency’s Medicaid overpayment
       collections for the quarter ended September 30, 2011; and

    •	 reviewed the State agency’s Form CMS-64 and supporting documentation to determine
       whether the overpayment collections were reported properly.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




New York Medicaid Overpayment Collections (A-02-12-01020)                                          3
